DepartmelTitof Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




EXCESSIVE MEDICARE PAYMENTS 

   FOR PRESCRIPTION DRUGS 





                   JUNE GIBBS BROWN
                   Inspector General

                     DECEMBER 1997
                      OEI-03~97-00290
                      OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department   of Health and Human Services
programs as well as the health and welfare of beneficiaries      served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management         problems and recommends     legislative, regulatory, and
operational   approaches   to correct them.

                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components     of the 

Office of Inspector General.     It conducts short-term management        and program 

evaluations (called inspections) that focus on issues of concern to       the Department,     the 

Congress, and the public. The inspection reports provide findings          and 

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


OEI’s Philadelphia Regional Office prepared       this report under the direction      of 

Robert A. Vito, Regional Inspector General.        Principal OEI staff included: 


REGION                                              HEADQUARTERS 


Linda M. Ragone, Project Leader                     Lisa A. Foley, Program Specialist 

David Tawes 

Nancy J. Molyneaux 

Lauren McNulty 

Amy Sernyak 

Cynthia R. Hansford 

Brijen Shaw 





To obtain copies of thisreport, please call the PhiladelphiaRegional Office at (800) 531-9562.
              EXECUTIVE                         SUMMARY

PURPOSE

To compare Medicare allowances for prescription     drugs with drug acquisition   prices
currently available to the physician and supplier communities.

BACKGROUND

Medicare allowances for prescription  drugs increased 25 percent from $1.8 billion in
1995 to $2.3 billion in 1996. However, the number of services allowed increased only
9 percent between the 2 years.

Medicare does not pay for over-the-counter or many prescription   drugs that are self-
administered.  However, the program does pay for certain categories of drugs used by
Medicare beneficiaries.

On January 1, 1998, Medicare Part B will begin to reimburse covered drugs at 95
percent of the average wholesale price. Currently, Medicare carriers may determine
the amounts that Medicare will pay for these drugs based on either the lower of the
Estimated Acquisition Cost (EAC) or the national Average Wholesale Price (AWP).
The EAC is determined    based on surveys of the actual invoice prices paid for the
drug. The AWP is reported in The Red Book and other pricing publications         and
databases used by the pharmaceutical   industry. Historically, it has been the AWP that
carriers have used to develop Medicare reimbursement      for prescription drugs.

To determine if average wholesale prices paid by Medicare truly represent wholesale
prices available to physicians and prescription   drug suppliers, we focused on 22 drug
codes representing   the largest dollar outlays to the program in 1995. We then
compared the Medicare allowances for these drug codes with prices available to the
physician and supplier communities.

FINDINGS

Medicare allowances for 22 drugs exceeded actual wholesale prices by $447 million in
1996.

Medicare and its beneficiaries  payments for the 22 drugs would have been reduced by
an estimated 29 percent ($447 million of $1.5 billion) if actual wholesale prices rather
than AWP’s were the basis for Medicare reimbursement.         Similar savings of $445
million were also identified for 1995. If the savings percentage    for just the 22 drugs
was applied to Medicare’s allowances for all drugs, the program and its beneficiaries
would have saved an estimated $667 million in 1996.
For more than one-third of the 22 drags review& Medicare allowed amoan& were more
than double the actual wholesale prices avaikkble to physicks and suppliem.

Medicare allowed between 2 and 10 times the actual average wholesale prices offered 

by drug wholesalers and group purchasing organizations   for 8 of the 22 drugs 

reviewed.   Medicare allowed at least 20 percent more than the actual average 

wholesale price for over 80 percent of the 22 drugs. For every one of the 22 drugs 

reviewed, Medicare allowed amounts were more than the actual average wholesale 

price in both 1995 and 1996. Not only did Medicare pay more than the actual average 

wholesale price, the program allowed more than the highest average wholesale price 

for every drug. 


There is no consistency among carriers in establishing and updating Medicare drug
reimbursement amounts.

Although Medicare’s reimbursement     methodology   for prescription   drugs does not
provide for different payment rates based on geographical     factors, the allowed
amounts for individual drug codes varied among the carriers. Medicare guidelines
allow carriers to update prescription drug reimbursement    on a quarterly basis.
However, not only did some carriers update yearly rather than quarterly but carrier
allowed amounts for the same drug code differed within a single quarter.

RECOMMENDATIONS

The findings of this report provide evidence that Medicare and its beneficiaries     are
making excessive payments for prescription     drugs. The published AWPs that are
currently being used by Medicare-contracted      carriers to determine reimbursement
bear little or no resemblance  to actual wholesale prices that are available to the
physician and supplier communities    that bill for these drugs.

We believe the information     in this report provides further support for a previous
recommendation    made by the Office of Inspector General.         We recommendedthat
HCFA reexamine its Medicare drug reimbursementmethodologies,with the goal of
reducingpaymentsas appropriate. Beginning in January 1998, Medicare
reimbursement   for prescription    drugs will be 95 percent of average wholesale price.
We believe that the 5 percent reduction is not a large enough decrease and that
further options to reduce reimbursement        should be considered.

We also believe that the variance of Medicare reimbursement       for individual drug
codes among carriers is inappropriate.   The   rate at which physicians  and suppliers are
paid for drugs should not depend on which carrier the providers bill. We, therefore,
recommendthat HCFA require all carriersto reimbursea uniform allowed amount
for each HCFA Common Procedural Coding System(HCPCS) drug code. The HCFA
could choose to supply all carriers with a list of average wholesale prices that it has
determined   represent each drug code. The carriers could then use the uniform prices
to calculate payment.   The HCFA could also designate one single entity to perform all


                                              ii
necessary calculations to determine reimbursement    for each drug code on a quarterly
basis. All carriers would then use this standard reimbursement    amount.

AGENCY        COMMENTS

The HCFA concurred with our recommendations.            The HCFA’s proposal in the
President’s 1998 budget that would have required physicians to bill Medicare the
actual acquisition cost for drugs was not adopted by Congress.       However, the agency
states that it will continue to pursue this policy in other appropriate  ways.

We support HCFA’s continued pursuance of reducing drug payments where
appropriate.    We do not believe that the reimbursement    methodology  for prescription
drugs recently adopted by Congress will curtail the excessive drug payments we’ve
identified in the Medicare program.    In this report we’ve identified Medicare
allowances that were 11 to 900 percent greater than drug prices available to the
physician and supplier communities.

To address    the issue of uniformity among carriers, HCFA has convened a Workgroup
to develop    an electronic file consisting of the average wholesale prices for drugs
covered by    Medicare.     The agency reports it will distribute this file to Medicare
contractors    for their use in paying drug claims.




                                              ...
                                             111
                          TABLEOFCONTENTS 


                                                                                                                                      PAGE



EXEXWIWESUMMARY                           ..........................................                                                          i

INTRODUCI-ION               .................................................                                                             1

FINDINGS           ......................................................                                                                 7

 � Estimated        savings based on actual wholesale                      drug prices              ..................                    7

 � Medicare        allowed     amounts       more than double                the average             actual price           .......       8

 � Lack    of consistency         in reimbursement            rates for drug codes                       ................                 9

RECOMMENDATIONS                       ...........................................                                                        10

APPENDICES

A:   Description       of 22 HCPCS          Codes       .................................                                               A-l

B: Summary         of Wholesale        Prices and Estimated                  Savings for 1995 and 1996                        ....      B-l

C: Individual       Drug Allowances           and Savings Percentages                       for 1995 and 1996                 ....      C-l

D: Health      Care Financing          Administration           Comments               .....................                            D-l
                            INTRODUCTION

PURPOSE

To compare Medicare allowances for prescription     drugs with drug acquisition        prices
currently available to the physician and supplier communities.

BACKGROUND

Medicare allowances for prescription  drugs increased 25 percent from $1.8 billion in
1995 to $2.3 billion in 1996. However, the number of services allowed increased only
9 percent between the two years.

Medicare Coverage and Payment for Presctiptim Drugs

While Medicare does not pay for over-the-counter           or many prescription    drugs that are
self-administered,    it does pay for certain categories of drugs used by Medicare
beneficiaries.     Under certain circumstances,     Medicare Part B covers drugs that are
used with durable medical equipment          or infusion equipment.     Medicare will cover
certain drugs used in association with dialysis or organ transplantation.         Drugs used for
chemotherapy       and pain management      in cancer treatments    are also covered.   The
program also covers certain types of vaccines such as those for flu and hepatitis B.

Depending     on the type of drug, both local carriers and four Durable Medical
Equipment     Regional Carriers (DMERCs) are responsible for processing claims for
drugs covered under Part B of the Medicare program.        The carriers are responsible
for determining    the allowance that Medicare will pay for these drugs.

Carriers base their current allowance rates on the regulations established in 42 Code
of Federal Regulation      405.517. According to the regulations, Medicare computes an
allowed amount for drugs based on either the lower of the Estimated Acquisition Cost
(EAC) or the national Average Wholesale Price (AWP). The allowed amount is the
price that Medicare and its beneficiaries      pay a drug supplier. The EAC is determined
based on surveys of the actual invoice prices paid for the drug. The AWP is
determined     through fie Red Book or similar pricing publications and databases used
by the pharmaceutical      industry. The AWPs are mainly provided to these sources by
pharmaceutical      manufacturers.   If a drug has multiple sources (more than one brand
or generic version), the price is based on the lower of the EAC or the median of the
national AWP for all generic sources. Historically, carriers have utilized AWP and not
estimated acquisition cost to develop Medicare reimbursement         for prescription drugs.

Drugs are billed to the Medicare program based on codes developed by the Health
Care Financing Administration   (HCFA).   These codes are developed as part of the
HCFA Common Procedure Coding System (HCPCS).           The codes define the type of
drug and, in most cases, a dosage amount.   The codes do not indicate whether a brand


                                                1
or generic version of the drug was administered;   nor do the codes provide   information
on the manufacturer   or distributor of the drug provided.

Change in Medicare Reimbmernent for Prescrption Drugs

In recent legislation, Congress established reimbursement for prescription drugs at 95
percent of a drug’s average wholesale price. This change will be implemented    on
January 1, 1998.

A different proposal to change the Medicare reimbursement       methodology   for
prescription drugs was included in the President’s FY 1998 budget.      The proposal
provided for the amendment      of 42 U.S.C. 1395u(o) to set payment for drugs not
otherwise paid on a cost or prospective payment basis. The revision set payment at
the lowest of: actual acquisition cost to the provider, AWP, median actual acquisition
cost, or an amount otherwise determined      under the Code. The actual acquisition cost
was defined to include all discounts, rebates, or any other benefit in cash or in kind.
This proposal was supported by HCFA but was not the version eventually adopted by
Congress.

Related Work by the cyg?ce of Inspector General

This report is one of several Office of Inspector General reports concerning Medicare
payments for prescription     drugs. In 1996, we released a report entitled
Appropriateness of Medicare Prescription Drug Allowances (OEI-03-96-00420)        which
compared Medicare drug reimbursement           mechanisms with Medicaid payment
mechanisms    for 17 drugs and found that Medicare could achieve significant savings by
adopting reimbursement      strategies similar to those used by Medicaid.   The OIG has
also produced several reports focusing on inhalation drugs paid for by Medicare.        In
Medicare Payments for Nebulizer Drugs (OEI-03-94-00390),        we found that Medicaid
reimbursed   albuterol sulfate and other nebulizer drugs at significantly lower prices
than Medicare.     In a companion report called A Comparison of Albuterol Sulfate Prices
(OEI-03-94-00392),    we found that many retail and mail-order pharmacies      charge
customers less for generic albuterol sulfate than Medicare’s allowed price. Suppliers’
Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393)     found that Medicare’s
allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs.

The Office of Inspector General also recently issued a report on acquisition costs of
brand name drugs by Medicaid pharmacies.       In Medicaid Pharmacy - Actual
Acquisition Costs of Presctiption Drug Products for Brand Name Drugs (A-06-96-00030),
the Office of Audit Services estimated that the actual acquisition cost for brand name
drugs was 18 percent below AWP.

METHODOLOGY

To determine    if average wholesale prices paid by Medicare truly represent wholesale
prices available to physicians and prescription  drug suppliers, we focused on drug


                                             2
codes representing  the largest dollar outlays to the program in 1995. We then
compared the Medicare allowances for these drug codes with prices available to the
physician and supplier communities.

We collected from three sources the data needed to compare Medicare allowed
amounts to actual wholesale prices. For information     on Medicare allowances for
prescription   drugs, we compiled statistics from HCFA’s National Claims History
(NCH) File. We then collected Medicare reimbursement         rates for specific drugs from
contracted   carriers. Lastly, we analyzed wholesale prices from drug wholesalers and
group purchasing organizations.

Medicare Allowance Data for prescription Drugs

We decided to review the 30 drug codes with the highest Medicare allowances for
1995. We chose 1995 since the Medicare claims data was 98 percent complete at the
commencement       of the inspection.  To determine the Medicare allowances for
prescription   drugs in 1995, we compiled a list of HCPCS codes that represent all of
the drugs which Medicare reimburses.       The drug code list primarily contained HCPCS
codes beginning with a J (known as J codes) which represent mainly injectable drugs
or drugs used in conjunction with durable medical equipment.       Also included in our
list of drugs were K codes which usually represent immunosuppressive         drugs, Q codes
which represent mainly drugs used for End Stage Renal Disease, several A codes that
represent drugs used for diagnostic imaging, and immunization       or vaccine codes that
are represented    by a five digit numeric code.

We then retrieved NCH allowance and utilization data using HCFA’s Part B Extract
and Summary System (BESS). We aggregated the allowances for each code to
calculate Medicare’s total prescription drug allowance for 1995. We then determined
the 30 drug codes with the highest individual allowances for that year.

Using NCH data, we calculated the Medicare allowances for all drugs in 1996. We
also determined the 1996 allowances for the 30 drug codes with the highest allowances
in 1995. At the time of our inspection, the NCH data for 1996 was 95 percent
complete.

Carrier Allowances for Prescription Drugs

We sent requests for carrier drug reimbursement     rates to Medicare’s 26 fraud
information  specialists.  The fraud information specialists coordinate work among all
HCFA contractors in the regions they represent.     There are a total of 61 geographical
regions that local carriers cover. We received drug allowances from 50 of the 61
areas. We also received responses from two of the four DMERCS.

We requested allowed amounts for prescription     drug codes with the highest total
allowances in 1995. The allowed amount reflects the dollar reimbursement      that
Medicare will allow for the specific dosage defined by the HCPCS drug code. We


                                             3
asked the carriers to provide allowed amounts by quarter for calendar years 1995,
1996, and 1997. However, some carriers provided us with data on a yearly basis and
others only for certain quarters.

Some carriers also furnished allowed amounts for both participating          and non-
participating  physicians.  Physicians participating  in the Medicare program agree to
accept Medicare allowed amounts as total reimbursement           for their services.
Participating  physicians receive 5 percent more in Medicare reimbursement            for
services. In the instances where both participating      and non-participating    allowed
amounts were provided, we used the participating        physician allowed amounts.        More
than three-quarters    of physicians across the nation now participate in the Medicare
program.

Utilizing the data provided by carriers, we calculated an average Medicare allowed
amount for each drug code by year. These allowed amounts were used to compare
Medicare reimbursement     with drug acquisition costs for physicians and suppliers.

Prescriplion Drug Costs for Physicians and Suppliers

In order to determine   acquisition costs for the top drugs, we reviewed 1995 and 1996
prices offered by wholesale drug companies and group purchasing organizations
(GPOs).     We obtained pricing lists/catalogs for seven wholesale drug companies and
seven group purchasing organizations.       Group purchasing organizations  provide
members with lower cost products by negotiating prices for specific drugs from
manufacturers.     The member can then purchase drugs at the negotiated price either
directly from the manufacturer     or a drug wholesaler that agrees to accept the
negotiated   price. For the GPOs we reviewed, most of the major drug wholesalers
accept the GPO contracted price.

The 14 pricing sources we used provided pharmaceutical        products mainly to physician
practices and specialized or closed pharmacies.     Depending    on individual State
licensing practices, specialized or closed pharmacies normally do not provide retail
prescription  drug dispensing to walk-in customers.    Instead, they often provide
prescription  drugs for home infusion or inhalation therapy.

After beginning our review of wholesale drug costs, we determined      that 2 of the top
30 drugs codes we identified for 1995 could not be used for the inspection.        Code
57699 represents not-otherwise-classified   inhalation drugs and Code 57190 for Factor
VIII (human anti-hemophilic     factor) has a dosage requirement  that is difficult to
determine.   Therefore, obtaining wholesale prices for these two codes would not be
possible.

For the remaining 28 drug codes identified for our analysis, 17 were used for the
treatment  of cancer/leukemia,   5 were inhalation drugs, 2 were vaccines, and 2 were
used for organ transplantation   or valve replacement   complications.  There was also a
drug used for immunodeficiencies     and another for severe infections.  The majority of


                                                4
these drugs would most likely be purchased and administered      by physicians or other 

health care practitioners. The inhalation drugs or drugs used for home infusion would 

most likely be provided by a specialized pharmacy or supplier. 


For the 28 drug codes, we collected 1995 and 1996 prices from the 14 drug pricing 

lists/catalogs.   We decided not to present prices for drugs where fewer than two 

different pricing sources could be identified per year. There were 6 codes that did not 

meet the two source minimum.       These codes were: vaccine codes 90724 and 90732, 

inhalation codes 57645 and 57660, and codes K0121 and 51245 used for 

transplants/valve   replacements.   A list of the HCPCS codes’ descriptions and dosages 

for the final 22 drugs used for our evaluation is provided in Appendix A. 


The 22 drug codes represented       10 single-source, 9 multiple-source, and 3 multiple-

brand drugs. A single-source drug has only one brand of drug available. A multiple-

source drug has both brand and generic forms of the drug available. There were no 

drug products manufactured      in the dosage defined by the HCPCS code for five drugs 

(57620, Q0136, 52405, 59181, 59293). We selected all the drugs with higher dosages 

that met the drug description and applied a conversion factor to achieve prices for the 

HCPCS-specified     dosage. For an additional code (J1561), we found that out of the 

multitude of prices we could find for the drug only three met the exact dosage 

requirement.    Since the higher dosage products seemed to be the more prevalent way 

of purchasing this drug, we included them in our analysis. 


We searched the 14 price lists for both brand and generic prices during 1995 and 

1996. For nine drug codes, we obtained between 5 and 8 separate prices. Eight of 

the nine were single-source drugs. For another eight codes, we found between 12 and 

29 separate prices. We found between 30 and 70 separate prices for the remaining 

five drug codes. 


Calculation of Potential Medicare Savings for prescription Dogs

To determine    the potential savings to Medicare if acquisition costs rather than
published AWPs were used for reimbursement,        we compared Medicare’s allowed
amounts to the wholesale prices we collected.     To do this, we compiled all the pricing
information  from the sources reviewed and calculated an average price by year for all
22 codes. We believe that the pricing information      supplied by the drug wholesalers
and group purchasing organizations     provides factual evidence of acquisition costs
available to physicians and suppliers.

The average price or average acquisition cost for each drug code was then compared
to the average Medicare allowed amount that we calculated from the carrier data.
For each drug code, the difference between the average price and the Medicare
allowed amount was computed.      We then applied this amount to the number of
services paid by Medicare for each drug in 1995 and 1996. The resulting dollar
amounts were aggregated to determine the total estimated savings to Medicare if
acquisition costs rather than AWP had been used to determine reimbursement.


                                            5
Appendix B provides the average Medicare allowed amounts and actual average
wholesale prices computed for the 22 drug codes reviewed.       Although we utilized the
actual average wholesale price to report savings in the findings section of this report,
the appendices   also contains the potential savings to Medicare if the lowest and
highest wholesale prices found were compared to the Medicare allowed amount.




                                             6

                                  FINDINGS 


MEDICARE ALLOWANCES FOR 22 DRUGS EXCEEDED                            ACTUAL
WHOLESALE PRICES BY $447MILLION IN 1996.

Medicare carriers now base prescription drug reimbursement     on published average
wholesales price of drugs. However, physicians and suppliers are often able to
purchase drugs for prices that are much lower than the official AWPs provided by
manufacturers.

After reviewing wholesale drug catalogs and group purchasing organizations’ prices for
the 22 drugs, we estimated that $447 million would have been saved by Medicare and
its beneficiaries if Medicare had based reimbursement     on actual wholesale prices
rather than published AWPs in 1996. These wholesale prices are available to
physicians, specialized pharmacies,  and other suppliers.   These wholesale prices
represent the actual acquisition costs to physicians and suppliers that bill Medicare for
these drugs.

Total allowed charges for the 22 drugs would have been reduced by 29 percent
($447 million of $1.5 billion) if actual wholesale prices rather than AWP were the
basis for Medicare reimbursement.       The 22 drugs represented    67 percent of the $2.3
billion in total Medicare drug allowances for 1996. If the savings percentage       for just
the 22 drugs was applied to Medicare’s reimbursement        for all drugs, the program and
its beneficiaries would have saved an estimated $667 million in 1996.

The savings for individual drugs ranged from 13 percent of allowances for three drugs
(59202, Q0136, 59185) to a high of 92 percent for leucovorin calcium (50640). Almost
half of the drugs (10 of 22) had estimated savings greater than 40 percent of
allowances.   A table provided in Appendix C lists the 1996 allowances and estimated
savings for the 22 drugs. The table also lists the percentage of allowance saved for
each individual drug if reimbursement    had been based on the actual average wholesale
prices available for the drug.

Simiihr savings of $445 million were idenw        for 1995.

If Medicare had based reimbursement       on actual wholesale costs in 1995, the program
and its beneficiaries would have saved an estimated 35 percent in payments for the 22
drugs. This would have amounted to savings of $445 million on $1.3 billion in total
1995 program expenditures     for these drugs. The $1.3 billion in expenditures  for the
22 drugs represented   70 percent of the $1.8 billion in Medicare total drug allowances
for 1995.

The percentage    of allowance saved for individual drugs ranged from 15 percent for
carboplatin  (J9405) and fludarabine phosphate     (59185) to 95 percent for leucovorin
calcium (50640). Half of the drugs (11 of 22) had estimated savings greater than 40


                                              7
percent of their 1995 allowances.      Individual    drug allowances    and savings for 1995 are
presented  in Appendix C.

FOR MORE THAN ONE-THIRD      OF THE 22 DRUGS REVIEWED,   MEDICARE
ALLOWED    AMOUNTS   WERE MORE THAN DOUBLE THE ACTUAL
AVERAGE    WHOLESALE   PRICE AVAILABLE   TO PHYSICIANS AND
SUPPLIERS.

Medicare allowed between 2 and 10 times the actual average wholesale prices offered
by drug wholesalers and group purchasing organizations    for 8 of the 22 drugs
reviewed.   For one drug, Medicare allowed 900 percent more than the average price
available for the drug in 1995 and 673 percent more in 1996. The chart below
provides the percentage   of the Medicare allowed amount that is greater than the
actual average wholesale price for each of the eight drugs.



                         n4EiDIcARE~~MoRRTHANDOUB~
                         THE WHOLESALE PRICE POR EitGHT DRUGS
                       1000

                        9oc-


                        800-




                               J3370 NO10 J7672 J9000 J7670 J1561 JO640 J7620
                                                DRUG CODBS



Medicare allowances were also significantly higher than acquisition costs for the
remaining 14 drugs reviewed.   Medicare allowed 60 to 95 percent more than the
actual average wholesale price for 3 drugs in 1995 and 2 drugs in 1996. Medicare
allowed amounts were higher by 20 to 50 percent for 9 drugs in 1995 and 8 drugs in
1996. Reimbursement     was between 11 and 18 percent more for the remaining 2 drugs
in 1995 and 4 drugs in 1996.



                                                    8

Medicare and its beneficiaries  paid at least 20 percent more than the actual average
wholesale price for over 80 percent of the 22 drugs. For every one of the 22 drugs
reviewed, Medicare allowed more than the average actual price in both 1995 and
1996. Not only did Medicare pay more than the average price, the program allowed
more than even the highest wholesale price obtained for every drug. Appendix B
provides information  on the highest and lowest wholesale price available for each drug
in 1995 and 1996.

Based on the differences found between Medicare allowed amounts and actual
wholesale prices, it is apparent that the current Medicare reimbursement      methodology
is based on an significantly inflated AWP statistic which bears little resemblance   to
actual wholesale prices available in the marketplace.

THERE IS NO CONSISTENCY AMONG CARRIERS IN ESTABLISHING                              AND
UPDATING MEDICARE DRUG REIMBURSEMENT AMOUNTS.

Although Medicare’s reimbursement     methodology   for prescription   drugs does not
provide for different payment rates based on geographical     factors, the allowed
amounts for individual drug codes varied among the carriers. Medicare guidelines
allow carriers to update prescription drug reimbursement    on a quarterly basis.
However, not only did some carriers update yearly rather than quarterly but carrier
allowed amounts for the same drug code differed within a single quarter.

For some drug codes, the differences in allowed amounts were significant.     Carriers’
allowed amounts varied even for single-source drugs where the reimbursement        rate is
based on only one AWP. A carrier reimbursed code 59217 (leuprolide acetate, a
single-source  drug) at $496.25 for all of 1995. Another carrier allowed $412.29 for the
first quarter of 1995, $439.30 for the second and third quarters, and $477.50 for the
fourth. For the first quarter of 1995, providers in one State were receiving 20 percent
more in reimbursement     than providers billing the same drug code in another State.
The second carrier eventually paid $496.26 for this code in the first quarter of 1996.
However, the first carrier increased reimbursement     to $515.63 in the same quarter.

Little uniformity was found among carriers when comparing changes in reimbursement
from the first quarter of 1995 to the second quarter of 1997. One carrier’s
reimbursement     for code 59000 (doxorubicin hcl, 10 mg.) increased 128 percent from
$20 to $45.50. Another carrier’s rate for the same code decreased 19 percent from
$48.20 to $39.10.

Since Medicare     does not allow geographical  differences to effect drug reimbursement,
variations would    seem to be caused by carriers’ decisions regarding when to update
reimbursement,     what sources to use for documenting     AWPs, and in the case of
multiple-source    drugs which generic drugs to include in calculating the median statistic.




                                               9

                     RECOMMENDATIONS

The findings of this report provide evidence that Medicare and its beneficiaries     are
making excessive payments for prescription    drugs. The published AWPs that are
currently being used by Medicare-contracted     carriers to determine reimbursement
bear little or no resemblance  to actual wholesale prices that are available to the
physicians and suppliers that bill for these drugs. By basing reimbursement      on
published AWPs rather than more appropriate        acquisition or wholesale prices, we
estimate that Medicare and its beneficiaries paid nearly one billion dollars more for 22
drugs in 1995 and 1996.

We believe the information   in this report provides further support for a previous
recommendation   made by the Office of Inspector General.      We recommendedthat
HCFA reexamine its Medicare drug reimbursementmethodologies,with the goal of
reducingpaymentsas appropriate. The HCFA concurred with the recommendation.
We urge readers to review our prior report, Medicare Payments for Nebulizer Drugs,
which provided the full text of HCFA’s comments on our recommendation.

For our readers’ convenience,   the options for changing Medicare’s reimbursement
methodology   that appeared in the recommendation      are presented below. We have
modified the original discounted AWP and acquisition cost options in response to the
evidence presented in this report concerning the large disparity between published
AWPs and actual average wholesale prices available for prescription     drugs.

Options for Changing Medicare’s Reimbuwment       Methodology for l%.wiption Drugs

Discounted    Wholesale   Price

Beginning in January 1998, Medicare will reimburse prescription      drugs at 95 percent
of AWP. Many State Medicaid agencies use greater discounted AWPs to establish
drug prices. Medicare could also base its drug payments on this larger discounted
average wholesale prices. We believe that the 5 percent discount that will soon be
implemented    is not a large enough decrease.     Upon implementation    of this option,
some type of general limit should be applied to the prices to ensure that inappropriate
increases in average wholesale prices that could occur in subsequent years do not
adversely affect Medicare payments.     In addition, the Secretary should be granted the
authority to conduct sample surveys of actual wholesale prices to determine the
amount of difference between actual average wholesale prices and published AWPs.
The percentage    difference found in the sample could then be applied to all AWPs
used by the program to determine drug reimbursement.

Acquisition   Cost

Medicare could base the payment of drugs on either actual or estimated acquisition
costs. Although Medicare currently has the authority to use EAC, carriers have yet to


                                            10
successfully implement    the option. Upon implementation     of either the actual or 

estimated method, we believe that some type of general limit should be applied to 

ensure that inappropriate    increases in drug prices do not occur in subsequent years. 


Manufacturers’      Rebates 


Medicare could develop a legislative proposal to establish a mandated manufacturers’ 

rebate program similar to Medicaid’s rebate program.      We recognize that HCFA does 

not have the authority to simply establish a mandated manufacturers’       rebate program 

similar to the program used in Medicaid.     Legislation was required to establish the 

Medicaid rebate program, and would also be required to establish a Medicare rebate 

program.    We have not thoroughly assessed how a Medicare rebate program might 

operate, what administrative  complexities it might pose, or how a Medicare rebate 

program might differ from a Medicaid rebate program.        We believe, however, the 

legislative effort would be worthwhile.   The same manufacturers     that provide rebates 

to Medicaid make the drugs that are used by Medicare beneficiaries        and paid for by 

the Medicare program. 


To implement   this option, HCFA would have to revise Medicare’s claims coding 

system which does not identify the manufacturer    or indicate if the drug is a brand 

name or a generic equivalent, information   that is needed to discount the AWP and 

obtain a rebate for a specific drug. Medicaid uses National Drug Codes (NDC) in 

processing drug claims. The NDC identifies the manufacturer        and reflects whether the 

drug is a brand name or a generic equivalent. 


Competitive      Bidding 


Medicare could develop a legislative proposal to allow it to take advantage of its 

market position.    While competitive bidding is not appropriate   for every aspect of the 

Medicare program or in every geographic location, we believe that it can be effective 

in many instances, including the procurement     of drugs. Medicare could ask 

pharmacies   to compete for business to provide Medicare beneficiaries with 

prescription  drugs. All types of pharmacies could compete for Medicare business, 

including independents,   chains, and mail-order pharmacies. 


Inherent   Reasonableness 


Since Medicare’s guidelines for calculating reasonable charges for drugs result in 

excessive allowances, the Secretary can use her “inherent reasonableness”       authority to 

set special reasonable charge limits. If this option is selected, however, it will not be 

effective unless the Secretary’s authority to reduce inherently unreasonable      payment 

levels is streamlined.  The current inherent reasonableness     process is resource 

intensive and time consuming, often taking two to four years to implement.          Medicare 

faces substantial losses in potential savings--certainly in the millions of dollars--if 

reduced drug prices cannot be placed into effect quickly. 





                                              11 

We also believe that the variance of Medicare reimbursement       for individual drug
codes among carriers is inappropriate.    The rate at which physicians and suppliers are
paid for drugs should not depend on which carrier providers bill. We, therefore,
recommendthat HCFA require all carriersto reimbursea uniform allowed amount
for each HCPCS drug code. The HCFA could choose to supply all carriers with a list
of average wholesale prices that it has determined   represent each drug code. The
carriers could then use the uniform prices to calculate payment.     The HCFA could
also designate one single entity to perform all necessary calculations to determine
reimbursement    for each drug code on a quarterly basis. All carriers would then use
this standard reimbursement    amount.

AGENCY        COMMENTS

The HCFA concurred with our recommendations.            The HCFA’s proposal in the
President’s 1998 budget that would have required physicians to bill Medicare the
actual acquisition cost for drugs was not adopted by Congress.       However, the agency
states that it will continue to pursue this policy in other appropriate  ways. The full
text of HCFA’s comments are provided in Appendix D.

We support HCFA’s continued pursuance of reducing drug payments where
appropriate.    We do not believe that the reimbursement    methodology  for prescription
drugs recently adopted by Congress will curtail the excessive drug payments we’ve
identified in the Medicare program.    In this report we’ve identified Medicare
allowances that were 11 to 900 percent greater than drug prices available to the
physician and supplier communities.

To address     the issue of uniformity among carriers, HCFA has convened a Workgroup
to develop    an electronic file consisting of the average wholesale prices for drugs
covered by    Medicare.     The agency reports it will distribute this file to Medicare
contractors    for their use in paying drug claims.




                                             12 

                           APPENDIX                   A


                         Descriptionof 22 HCPCS Codes


Code     Description 


59217    Leuprolide Acetate (for depot suspension),        7.5 mg. 

57620    Albuterol Sulfate, 0.083%, per ml., inhalation solution administered 

         through DME 

59265    Paclitaxel, 30 mg. 

59202    Goserelin Acetate Implant, per 3.6 mg. 

JO640    Injection, Leucovorin Calcium, per 50 mg. 

59045    Carboplatin,   50 mg. 

51440    Injection, Filgrastim (G-CSF), per 300 mcg. 

Q0136    Injection, Epoetin Alpha, (For Non-ESRD Use), per 1000 units 

52405    Injection, Ondansetron       Hydrochloride,  per 1 mg. 

51625    Injection, Granisetron      Hydrochloride,  per 1 mg. 

51561    Injection, Immune Globulin, Intravenous,        per 500 mg. 

57670    Metaproterenol      Sulfate, 0.4%, per 2.5 ml., inhalation solution 

         administered    through DME 

51441    Injection, Filgrastim (G-CSF), per 480 mcg. 

59182    Etoposide,   100 mg. 

59000    Doxorubicin HCL, 10 mg. 

5903 1   BCG (Intravesical)      per instillation 

59181    Etoposide,   10 mg. 

57672    Metaproterenol      Sulfate, 0.6%, per 2.5 ml., inhalation solution 

         administered    through DME 

59293    Injection, Mitoxantrone      Hydrochloride,   per 5 mg. 

59185    Fludarabine    Phosphate,     50 mg. 

59010    Doxorubicin HCL, 50 mg. (code discontinued           12/31/96) 

53370    Injection, Vancomycin HCL, up to 500 mg. (code discontinued           for 

         infusion 9/l/96) 





                                       A-l
               APPENDIX          B





SUMMARY   OF WHOLESALE PRICES AND F2XlMATED   SAVINGS 

                   FOR 1995AND 1996 





                        B-l
SUMMARY   OF WHOLESALE   PRICES AND FISTMATED   SAVINGS FOR 1995 





                             B-2 

  SUMMARY                   OF WHOLFISALE PRICES AND ESTIMATED                                         SAVINGS FOR 1996 




       HCPCS           Awnage                             SavingsBased Lowest               savings
       Code            Medicare              AYerage      on Actual    wholi2sate           loll
                                             Wholesale    Avemgt~          Pliee            f,4owest
                       AtXl0Ullt             Price        Wholesale        Found            whwe
                                                          Price                             Price

         J9217                $499.72          $414.73      $104,365,435       $409.27 $111,066,902          $421.00    $96,663,201 


         57620 
                   $0.41         $0.19       $92,199,355            $0.16   $105,604,026       $0.25    $67,530,255 


         J9265 
              $181.32          $148.56       $22,757,465       $140.26       $28,526,148     $155.43    $17,986,896 


         JV202                $378.29          $329.43       $11,215,983       $317.00       $14,067,894     $341.85     $8,364,073 


11       J&4@      1 
         $21.701           $2.811      $52,514,021
                                                                       1            $2.391 $53,670,253
                                                                                                     /        $3.451    $50,724,087 


         Jw45                  $82.76           $67.64       $12,539,724           $64.90    $14,814,584 
    $70.55    $10,128,000 


         fl440 
              $154.65          $123.39       $11,592,740       $121.56       $12,271,393 
   $126.00    $10,624,824 


         00136 
               $11.93           $10.37       $10,399,198            $9.31    $17,440,772 
    $10.70     $8,195,663 


         52405                     $6.08         $4.28       $14,319,348            $3.92    $17,172,050 
    $4.73     $10,776,959 


         J1625               $170.02           $125.71       $13,399,842       $122.90       $14,250,690 
   $128.00    $12,708,277 


         J1561                 $42.21           $16.65       $24,808,622           $12.50    $28,833,317 
    $34.00     $7,967,739 





         57672 
                   $1.23         $0.44        $4,805,175           $0.32      $5,492,908 
    $0.55      $4,117,563 


         J9293               $172.81           $142.40        $5712,650       $139.91         $2,935,141 
   $145.38     $2,447,586 


         59185 
             $179.45           $156.50       $2,049,320       $152.00         $2,451,148 
   $161.00     $1,647,493 


         J9m.3 
             $207.12            $65.46      $10,513,722            $54.00    $11,364,260 
   $76.00      $9,731,464 


         J3370                     $9.44 I       $4.42I      $43213,709            $3.45I     $5,027,227
     $6.45I     $2,509,417

L-.-               I                                                  I                                I

        TOTAL,                                             $447,24i$32                      $514,085$563 
             $357,776,756




                                                                      B-3 

                  APPENDIX         C





INDIVIDUAL   DRUG ALLOWANCES AND SAVINGS PERCENTAGES 

                     FOR 1995AND 1996 





                          C-l
  EstimatedMedicare Savingsif AcquisitionCosts
Were Used for 1995PrescriptionDrug Reimbursement




                     c-2
  EstimatedMedicare Savingsif AcquisitionCosts
Were Used for 1996PrescriptionDrug Reimbursement




                    c-3
              APPENDIX          D





HEALTH   CARE FINANCING ADMINISTRATION   COMMENTS 





                       D-l
  DEPARTMENT   OF HEALTH dr HUMAN SERVICES                                 Health Care Financing Administration


                                                                                       Deputy Administrator
                                                                                       Washington. D.C. 20201




                     OCT - I 1997
DATE:

TO: 	            June Gibbs Brown
                 Inspector General

FROM: 	          Nancy-Aun Min DeParle N     M\T
                 Deputy Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Excessive Medicare
           Payments for Prescription Drugs,” (OEI-03-97-00290)


We reviewed the above-referenced report that examines Medicare payments for
prescription drugs. Medicare allowances for prescription drugs increased 25 percent from
$1.8 bilhon in 1995 to $2.3 billion in 1996. However, the number of services allowed
increased only 9 percent between the 2 years.

Medicare does not pay for over-the-counter drugs or many prescription drugs that are
self-administered. However, the programwill pay for certain categories of drugs used by
its beneficiaries. Contracted carriers determine the amounts that Medicare wi.lIpay for the
drugs based on the lower of the estimated acquisition cost @AC) or the national average
wholesale price (AWP). The allowed amount is the price that Medicare and its
~en&%iaries pay a drug supplier. OIG fi.udings indicate that at present, it is the AWP
that carriers use to develop Medicare reimbursement for prescription drugs. The AWP is
reported in The Red Book and other pricing publications and databases used by the
pharmaceutical industry. The EAC is determined based orrsurveys of the actual invoice
prices paid for the drug.

The findings contained iu the report indicate that Medicare is making excessive payments
for prescription drugs. The published AWPs currently used by Medicare carriers to
determine reimbursement do not resemble the actual wholesale prices which are available
to the physician and supplier communities that bill for these drugs.




                                              D-2 

                                                                                     2

OIG suggests that the Health Care Financing Administration (HCFA): (1) reexamine its
Medicare drug reimbursement methodologies, with the goal of reducing payments; and
(2) require all carriers to reimburse a uniform allowed amount for each HCFA Common
Procedural Coding System (HCPCS) drug code.

HCFA concurs with OIG’s recommendations.        Our detailed comments are as follows:

OIG Recommendation 1

HCFA should require all carriers to reimburse a uniform allowed amount for each
                                                                  .-
HCPCS drug code.

HCFA Response

We concur. HCFA agrees with OIG’s findings and recommendations contained in this
report. HCFA convened a Workgroup to develop an electronic file consisting of the
AWPs for drugs covered by Medicare. HCFA will then distribute this file to Medicare
contractors for their use in paying claims for drugs.

OIG Recommendation 2

HCFA should reexamine its Medicare drug reimbursement methodologies, with the goal
of reducing payments as appropriate.



We concur. We agree with OIG’s fmdings and recommendations. We included a
provision in the President’s 1998 budget bill that would have eliminated the markup for
drugs billed to Medicare by requiring physicians to bill the program the actual acquisition
cost for drugs. Unfortunately, this provision was not enacted, but we will pursue this
policy in other appropriate ways.




                                              D-3 

